Case No.

IN THE
SUPREME COURT OF THE UNITED STATES
IN RE EDUARDO PINEDA
BOP #27156-078

CERTIFICATE OF SERVICE
S.C.O.T.U.S. Rules 22 (2), 29 {4)(a}

I certify that the following attached documents for

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AFFIDAVIT OR DECLARATION IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PETITION FOR EXTRAORDINARY WRIT OF HABEAS CORPUS

was sent postage paid by first class mail addressed to the following:
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave,, N. W.,
Washington, DC 20530-001

/
Dated;

Eduardo Pineda ft 27156-078
FCI Beaumont Low
P.O. Box 26020
Beaumont, TX 77720

